         INSPECfOR   GE~ERAL




'        UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, D.C. 20436

    September 16, 1991




    The Office of Inspector General has completed an audit of the
    HealthPlus claim.    This audit was scheduled in response to a
    request from the Office of Personnel Management (OPM)         for
    assistance in conducting a government-wide audit. The objectives
    of the audit were to: 1) determine the validity of the USITC
    portion of the claim made by HealthPlus against OPM; 2) determine
    the amounts due Heal thPlus, through OPM, from USITC; and 3)
    identify the causes of any overpayments or underpayments to
    HealthPlus.
    For the twelve pay periods selected by OPM, we reviewed the amounts
    paid by the Commission and the employee with the amount claimed by
    HealthPlus. There were differences in three pay periods. In all
    instances,   Heal thPlus  had been properly notified of         the
    transactions and the proper amounts were remitted on behalf of the
    Commission and the employee.
    Due to the limited nature of this report, it was not issued in
    draft for comments. A working draft was reviewed by officials in
    the Office of Administration and discussed at an exit conference
    on September 12, 1991.    They agreed with the findings.   Their
    comments were incorporated as appropriate.


                                         iit1{/_£ ~     ~ ,,?. ---r~
                                     ~~e      E. Altenhof
                                        Inspector General
                                            TABLE OF CONTENTS



INTRODUCTION AND SCOPE. . • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • •                 1

BACKGROUND • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • •    2

FINDINGS. • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • .   3

EXPLANATION OF DIFFERENCES. • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • •                     3

LWOP PROCEDURES • • • • • • • • • . • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • •         3


EXHIBITS

         A.     Sampling for Bi-Weekly Payroll Cycles

         B.     Examination of Sample Results

         c.     Statistical Projections
The Office of Inspector General has completed an audit of the
HealthPlus claim.    This audit was scheduled in response to a
request from the Office of Personnel Management (OPM) for
assistance in conducting a government-wide audit. The objectives
of the audit were to: 1) determine the validity of the USITC
portion of the claim made by HealthPlus against OPM; 2) determine
the amounts due HealthPlus, through OPM, from USITC; and 3)
identify the causes of any overpayments or underpayments to
HealthPlus.

Our audit was conducted in August and September 1991.          The
fieldwork was performed at Commission Headquarters in Washington,
D.C. We interviewed agency officials, primarily in the Offices of
Finance and Budget and Personnel, to determine policy and
procedures concerning collection of premiums and remittals to OPM.
We also conducted telephone interviews with officials at the
General Services Administration (GSA) National Payroll Center in
Kansas City, Missouri which processes the Commission's payroll.
Records were obtained from the Office of Finance and Budget and
GSA.
Our audit covered fiscal year (FY) 1988 to date, specifically 12
pay periods selected by OPM as part of a statistically valid sample
(see Exhibit A). For these pay periods, we identified differences
between the agency records and HealthPlus claim and determined the
reasons for the differences.
A prior audit report on the personnel/payroll system had identified
a weakness in that the Commission did not verify changes in
employee deductions, such as health benefits.     Subsequent to the
identification of this weakness, the Office of Finance and Budget
compared the entire master payroll listing to the personnel
records. Any differences in deductions, including health benefits,
were reconciled. The Office has also requested that GSA send the
change lists every pay period so they can be reviewed.
This audit was performed in accordance with applicable generally
accepted government auditing standards.    Accordingly, the audit
included an examination of internal controls and other auditing
procedures that were considered necessary under the circumstances.




                                 1
In December 1990, HealthPlus of Maryland submitted a $2.9 million
claim to OPM under the contract disputes clause of their contract.
The claim relates to alleged underpayments of health benefits
premiums on a government-wide basis during contract years 1988
through 1990.
OPM administers the Federal Employee's Health Benefits Program on
behalf of the Federal government. Among its responsibilities, OPM
acts as a fiscal intermediary between Federal agencies and health
insurance carriers. Federal agencies collect the employee's share
of the insurance premiums, add to it the Government's share which
is funded by the agency appropriation from which the employee is
paid, and forward the total amounts to OPM.    OPM pays the total
amount collected from Federal agencies, less an amount held by OPM
for reserves, to the insurance carriers.     HealthPlus is one of
those insurance carriers.
Within the Conunission, an employee elects to participate in a
health plan, such as HealthPlus, by completing a SF-2809.
Employees can enroll in or change their health plans in response
to designated happenings, e.g. change in marital status or
employment; these changes are effective the following pay period.
Annually, there is an open period during which employees can elect
to change health plans; these changes are effective on an
established date after the end of the open period. Termination of
plan participation due to an employee's resignation is reflected
on a SF-2810.
Completed SF-2809s and 2810s are sent to the GSA National Payroll
Center. A copy is put in the employee's official personnel file.
GSA enters any changes in health benefits into their computer
system and reviews a change list to ensure the changes have been
correctly entered. Copies are attached to a SF-2811 which is sent
to the health plan carrier which must certify that the report has
been received.
Every pay period, GSA deducts the employees' share of the health
benefits premium from their paychecks, and deducts the Conunission's
share from the agency appropriation. These amounts are reported
to the Commission on SF-2812s and 2812as. GSA submits the forms
and the entire amount of funds deducted to OPM for transmittal to
HealthPlus.




                                 2
For the twelve pay periods selected by OPM, we reviewed the amounts
paid by the Commission and the employee with the amount claimed by
HealthPlus. There were differences in three pay periods. In all
instances,   HealthPlus   had been properly notified of         the
transactions and the proper amounts were remitted on behalf of the
Commission and the employee.




1. For the pay period ending (PPE) March 11, 1989, K. Edwards was
listed on the HealthPlus Claim and the Commission list of
enrollees. The agency contribution had been remitted to OPM. The
employee was on leave without pay (LWOP) for this and two
additional pay periods, during which time the employee contribution
was not remitted to OPM. A deduction for the employee's share for
these three pay periods was made in the PPE April 22, 1989.

2. For the PPE May 19, 1990, P. Kahn was listed on the HealthPlus
claim but not on the Commission list of enrollees. Kahn terminated
employment on April 20, 1990. HealthPlus certified that they had
received the SF-2811 notice of the termination on May 30, 1990.
That SF-2811 also notified HealthPlus that Kahn was re-enrolling
effective May 21, 1990, as part of the continued insurance coverage
benefit.   No premiums were due from the employee or Commission
during the 31 day period after termination prior to the new
coverage being effective.

3.   For the PPE October 29, 1990, A. Wylegala was listed on the
Heal thPlus claim but not on the Commission list of enrollees.
Wylegala terminated employment on October 6, 1990.   GSA sent the
SF-2811 to HealthPlus on October 23, 1990.   HealthPlus certified
that they had received the SF-2811 notice of the termination on
November 27, 1990.   The GSA representative said occasionally the
carriers have a backlog and do not promptly return the
certifications.
A summation of these findings is presented in Exhibits B and   c.



OPM requested that    the procedures for collecting premiums during
LWOP periods be      specifically addressed.     According to GSA
officials, if an     employee is on LWOP, the agency portion is
deducted according   to standard procedure and the employee's share
                                  3
is deducted to the extent possible.    Employees on extended LWOP
are notified in writing of their responsibility to make the premium
payments. A copy of this notice is sent to the agency's personnel
office. If the employee returns to work, GSA will deduct past due
premium payments from the employee's paychecks.    If the employee
does not return to work, the premiums due can usually be recovered
from the individual's final pay or retirement check.    In the rare
instances when this is not possible, GSA will try to recover the
funds due from the individual. GSA does not establish receivables
for these amounts. The Commission has never been notified of any
problems in recovering premiums due and has not established any
procedures for collections or receivables.




                                 4
                                                            Exhibit A




              USOPM, OIG, INSURANCE AUDITS DIVISION
        SAMPLING FOR BI-WEEKLY (VERSION A) PAYROLL CYCLES
                   U S INTERNATIONAL TRADE COMMISSION



             PAY
            PERIOD          FROM                TO
              II            DATE               DATE
             8811         05/22/88           06/04/88
             8820         09/25/88           10/08/88
             8905         02/26/89           03/11/89
             8912         06/04/89           06/17/89
             8916         07/30/89           08/12/89
             8924         11/19/89           12/02/89
             9006         03/25/90           04/07/90"
             9007         04/08/90           04/21/90
             9009         05/06/90           05/19/90
             9015         07/29/90           08/11/90
             9017         08/26/90           09/08/90
             9020         10/07/90           t0/20/90




. ·''
                                                                                                           Exhibit B
                                                                                                          Paqe..L_of...3__


                                                       BXAHZBATZOB OP SAHPLB RBSULTS


                                       AGBBCY: --~U~STIC~~-----------------------------­
                                       YBAR: 1989                         PAYROLL PBRZOD: 3/11/89
~--
                   -    --


       EMPLOYEE NAME         AMT DUE OPH FOR PLAN        AMT PAID OPM FOR PLAN        UNDER/(OVER)PYMT             CAUSE OF
              &              GOVT. EMPLOYEE TOTAL        GOVT. EMPLOYEE TOTAL       GOVT. EMPLOYEE ~                ERROR
       PAY OFFICE NO.

    Ki.mberlv Edwards         92.88   30.96   123.84      92.88   30.96    123.84    ~      ~       j_
                         .
      34-00-0001




I




      TOTAL                                     [ 1)                                                [2)

      [1] To Exhibit c, Sample-Dollars column.
      [2]   To Exhibit c, Results-Dollars column.
      Note: The amounts required on this schedule are qross amounts, not net-to-carrier amounts.
                                                                                                        "'
                                                                                                         Exhibit B
                                                                                                        Page_2_of_3_


                                                      BXAHXHATIOB OP SAHPLB RESULTS

                                                        USITC
                                     AGBBCY:
                                            1990                       PAYROLL PBRXOD: 5/19/90
                                     YBAR: - -
              -   ~
                      ---                                                                                    ---     -

  EMPLOYEE NAME             AMT DUE OPM FOR PLAN        AMT PAID OPM FOR PLAN    UNOER/(OVER)PYMT                  CAUSE OF   I




         &                  ~     EMPLOYEE TOTAL        GOVT. EMPLOYEE TOTAL    ~    EMPLOYEE TOTAL                 ERROR
  PAY OFFICE NO.

Peter L. Kalm                ff'     ~       ~            ~      0        ~      ~          0     ftl
 34-00-0001




 TOTAL                                         [ 1]                                               [2)

 (1] To Exhibit c, Sample-Dollars column.
 [2] To Exhibit C, Results-Dollars column.
 Note: The amounts required on this schedule are gross amounts,                      nQt   net-to-carrier amounts.
                                                                                                                      ,.
                                                                                                                       Exhibit B
                                                                                                                      Page_3_of_3_


                                                             BXAHZRATIOB OP SAHPLB RBSOLTS


                                             AGBBCY:                USITC

                                             YBU:    1990                        PAYROLL PBRJ:OD: 10/20/90
-                 -    ---    ---    --   ---------      -      -------         --       -   ---   - - -         --                    ----

     EMPLOYEE NAME                  AHT DUE OPH FOR PLAN       AMT PAID OPM FOR PLAN         UNDER/(OVER)PYMT               CAUSE OF
            &                       ~     EMPLOYEE TOTAL       ~     EMPLOYEE TOTAL          ~  EMPLOYEE TOTAL               ERROR
      PAY OFFICE NO.
Andrew P. Wvleqala                   0       0       0          0           0        0       0       0       0
    34-00-0001




    TOTAL                                              [1J                                                   [2]

    (1] To Exhibit c, Sample-Dollars column.
    [2] To Exhibit           c,   Results-Dollars column.
    Note: The amounts required on this schedule are gross amounts, not net-to-carrier amounts.
                                                                                    Exhibit c
                                                                                   Paqe 1 of 2




                                      STATJ:STJ:CAL PROJBCTJ:OBS
                                      (BY YEAR, BY PAY PERJ:OD)


                     AGBBCY: ______~U~S~ITC~--------------------------

 1988 RESULTS


                                   [1]          SAMPLE [2]                   [2]
                          UNIVERSE         (SUB UNIVERSE)        RESULTS             PROJECTIONS
                        NUMBER DOLLARS     NUMBER DOLLARS
        PAY PERIOD                                            NUMBER DOLLARS       NUMBER DOLLARS


     5/22/88-6/4/8.8     j_       0          0       0         0         0
     9/25/88-10/8/88     0        0          0.      0         0         0
        TOTAL            0        0          0.      0         0         0

I PERCENT



 1989 RESULTS


                                   [1]          SAMPLE [2]               [2]
                          UNIVERSE         (SUB UNIVERSE)        RESULTS             PROJECTIONS
                        NUMBER DOLLARS     NUMBER DOLLARS
        PAY PERIOD                                            NUMBER DOLLARS       NUMBER DOLLARS

     2/26/89-3/11/8.9    1      123.84       1     123.84      1         0
     6/4/89-6/17/89      0        0          0       0·        0         0
        ..
     7/30/89-8/12/89     0        0          0       0         0         0
 11/19/89-12/2/89        0        0          ~       0         0         0
        TOTAL            1      123.84       1     123.84      1         0'
 •
 PERCENT

 '[1]    Total difference in pay periods selected for review.
         From Exhibit B.
                                                                                          Exhibit c
                                                                                         Paqe 2 of 2



                                            STATXSTZCAL PROJBCTZOBS
.,                                          (BY YEAR, BY PAY PERXOD)


                        AGBRCY: ____~__U_S_~--------------------------

     1990 RESULTS

                                           (1]        SAMPLE (2]                   [2]
                             UNIVERSE            (SUB UNIVERSE)       RESULTS              PROJECTIONS
                           NUMBER DOLLARS        NUMBER DOLLARS
           PAY PERIOD                                              NUMBER  DOLLARS       NUMBER  DOLLARS


     3/25/90-4/7/90         ~        ~             0       ~        flJ      0
     4/8/90-4/21/90         flJ      flJ           0       0        flJ      flJ
     5/6/90-5(19/90         1       60.99          1       0        1        flJ
     7/29/90-8/11/9P
         ..                 flJ      0             0       0        0        flJ

      8/26/90-9/8/90        flJ      0             0       0        0        flJ
     10/7/90-10/20/9C       1     139.60           1       0        0        flJ

           TOTAL            2     200.59           2       flJ      flJ      flJ


     PERCENT


     [1] Total difference in pay periods selected for review.
     [2]   From Exhibit B.
